HHS/OIG - Audit, "Audit of Medicare Administrative Costs Claimed by General American Life Insurance Company for the Period October 1, 1993 Through December 31, 1999," (A-07-01-02086)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicare Administrative Costs Claimed by General American Life
Insurance Company for the Period October 1, 1993 Through December 31, 1999,"
(A-07-01-02086)
April 3, 2002
Complete
Text of  Report is available in PDF format (3.73 MB). Copies can also
be obtained  by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The purpose of this review, performed by the certified
public accounting firm of Carmichael, Brasher, Tuvell & Company, was to
determine whether administrative costs claimed by the General American Life
Insurance Company (GALIC) to administer Part B of Medicare for the period October
1, 1993 through December 31, 1999 were reasonable, allocable, and allowable.
The auditors determined that GALIC had not established adequate systems for
internal control, accounting and reporting of indirect costs, fringe benefits,
miscellaneous costs, and termination costs. The GALIC could not provide sufficient
documentation for these costs and the auditors could not determine the allowability
of such costs through other auditing procedures. As a result, the auditors questioned
and recommended for disallowance about $42.8 million of administrative costs
claimed over the audit period.